No. 20-804

 

 

In THE
Supreme Court of the United States

Houston COMMUNITY COLLEGE SYSTEM,

Petitioner,
v.

DAVID BUREN WILSON,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF AMICUS CURIAE OF
AMERICAN JEWISH COMMITTEE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,724 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
